INDEPENDENT REVIEW OF THE SBA'S ACCOUNTING OF FY 2010 DRUG
      CONTROL FUNDS AND PERFORMANCE SUMMARY REPORT




                       Report Number: 11-13 

                     Date Issued: April 18, 2011 

        U.S. Small Business Administration
        Office of Inspector General                  Memorandum
   To: 	 Antonio Doss                                                Date:   April 18, 2011
         Director, Office of Small Business Development
         Centers
         lsi Original Signed 

 From: Peter McClintock 

         Deputy Inspector General 


Subject: 	 Independent Review of the SBA's Accounting ofFY 2010 Drug Control Funds and
           Performance Summary Report
           Report No. 11-13

         This report presents the results of our review of the Small Business Administration's
         (SBA) Accounting ofDrug Control Funds and Performance Summary Report for the
         year ended September 30,2010. As directed by the Office ofNational Drug Control
         Policy (ONDCP) Circular, Drug Control Accounting, 1 agencies are required annually to
         provide a detailed accounting of all funds expended on National Drug Control Program
         activities and the results associated with those activities. However, when drug-related
         obligations are less than $50 million and a detailed accounting would constitute an
         unreasonable burden, ONDCP permits agencies to submit an alternative report, as long
         as it is accompanied by Agency and Office of Inspector General statements that full
         compliance with the circular would constitute an unreasonable burden.

         As the SBA's Fiscal Year (FY) 2010 drug-related obligations were less than
         $50 million, an alternative report for FY 2010 was submitted. We (1) assessed whether
         providing a detailed accounting of funds expended on National Drug Control Program
         activities would constitute an unreasonable burden, and (2) reviewed SBA' s report and
         related management assertions to determine the reliability of management assertions
         made in the SBA's Accounting ofFY 2010 Drug Control Funds and Performance
         Summary Report.

         We reviewed the SBA's FY 2010 accounting entries for the Drug-Free Workplace
         Program made by the Office of the Chief Financial Officer, and grantee self-reported
         performance data used to support the SBA's Accounting ofFY 2010 Drug Control
         Funds and Performance Summary Report. We wish to note that the FY 2010
         performance data reported by the SBA is based on information submitted by grantees
         that was not verified by the SBA to determine whether it was accurate, complete and
         unbiased. The SBA properly disclosed that it relied on the honesty and integrity of


         I   Dated May 1, 2007 .
grantees to ensure that performance data was accurate, complete and unbiased in
presentation and substance. We conducted our review in accordance with attestation
standards established by the American Institute of Certified Public Accountants, and
applicable standards contained in Government Auditing Standards, issued by the
Comptroller General of the United States. Because a review is substantially less in
scope than an examination and does not provide an adequate basis from which to
express an opinion on the SBA's Accounting ofFY 2010 Drug Control Funds and
Performance Summary Report, accordingly, we do not express such an opinion.

Based on our review, we believe that full compliance with the ONDCP circular would
constitute an unreasonable burden for the SBA. Also, nothing came to our attention that
caused us to believe that the SBA's alternative report for the year ended September 30,
2010 is not presented, in all material respects, in conformity with ONDCP's Circular, or
that management's assertions are not fairly stated, in all material respects, based on the
criteria set forth in ONDCP's Circular, Drug Control Accounting.

A copy ofSBA's Accounting ofFY 2010 Drug Control Funds and Performance
Summary Report is attached. Should you or your staff have any questions, please
contact Jeffrey R. Brindle, Director, Information Technology and Financial
Management Group at (202) 205-7490.

Attachment




                                            2

.§t.
     ~,,\. aus/~~
<i                   <J>          U.S. SMALL BUSIN£SS ADMINISTRATION
                 .
;>           •
                                         WASH'NGTON. D.C. 20415

'"                   0
 ~/,y/jff'v.f.'"                                                               April 7, 2011

     Mr. Jon Rice
     Associate Director for Performance and Budget
     Office of National Drug Control Policy
     750 17'h St., NW
     5th Floor
     Washington, DC 20503

     Dear Mr. Rice:

     As requested, the U.S. Small Business Administration's (SBA) is providing the following
     response.

                                  Drug Methodology Fiscal Year 20 I 0

                            Drug Function               Budget Decision Unit
                            Prevention -$IM             Education $IM

     If you have any questions concerning this report, please contact Rachel Karton in SBA's Office
     of Small Business Development Centers at 202-619-1816.

     We attest that full compliance with the ONDCP Circular would create an unreasonable burden
     on the SBA.



     [ForA ex. 6]
     Anronio Doss
     Associate Administrator
     Small Business Development Centers




     [ForA ex. 6]
     JoMCarver
     CIrief Financial Officer



     [ForA ex. 6]
     Peg <Wlstafson
     Inspee'tor General
    ~
      ~"" BUS~,y<;),
.
~

:>­
                .
                     <I>
                        .                U.S. SMALL BUSINESS ADMINISTRATION
                                                  WASHINGTON, D.C.   2Q415

"                   0
  ~.I,y/i"f'v. t5"



                                                                                   April 7, 2011

                            Mr. Ion Rice
                            Associate Director for Performance and Budget
                            Office of National Drug Control Policy
                            750 17th St., NW
                            5th Floor
                            Washington, DC 20503

                            Dear Mr. Rice:

                            In accordance with the Office of National Drug Control Policy's
                            Drug Control Accounting Circular, the Small Business
                            Administration submits its Accounting ofFY 2010 Drug Control
                            Funds and Performance Summary Report with the accompanying IG
                            authentication.

                            If you have any additional questions or comments, please call me directly.

                            Sincerely yours,



                            [FOIA ex. 6]
                            AR1onio Doss
                            Director, Office of Small Business Development Centers

                            Enclosure
PERFORMANCE INFORMATION

      MEASURE 1: Number of Small Businesses Educated

Table 11
      FY2007                FY 2008 Actual         FY 2009 Actual         FY2010 Goal            FY2010 Actual
       Actual

       2,731                      2,280                  1,550                 1,500                  1,332


(a) Describe the measure. This measure reflects the number of small businesses that were
    educated by a Drug Free Workplace Program (DFWP) grantee. A purpose of the
    program is to educate as many small businesses as possible to make them aware of the
    benefits of implementing a DRWP for their business. If a business implements a
    DFWP, it is believed that there will be a decrease in absenteeism, workplace
    accidents, tardiness, damaged or stolen property and insurance premiums. It is also
    believed that productivity and morale will increase. The information is collected
    directly fro IIl the grantees. The grantees input their data into a database created for
    this program.

(b) In 2007, the program started to collect outcome information on the following metrics
    frpm businesses that had a change in:
           "    ~




                                                                             -~.~
    Absenteeism                                                       I Insurance Premiums
    Tardiness                                                        _I Damaged or stolen Property
                                                                        costs
    Workplace Accidents                                               I Productivity
    Employee Turnover                                                 I
   In Fiscal Year (FY) 2007 and FY 2008, the outcome information was collected and
   analyzed to determine the effects that the implementation of a DFWP has on small
   businesses. It showed that after the implementation of a DFWP a small business saw
   a decrease in absenteeism, workplace accidents, employee turnover, damaged or
   stolen property and insurance premiums. Also, the small business saw an increase in
   productivity. Since this information was the first ever collected, it is possible that the
   results will not yield the expected outcomes long term.

   InFY 2009 and FY 2010, after implementation ofaDFWP, the small businesses
   reported no increases in insurance premiums and damaged or stolen property.
   Additionally, there was a decrease in the categories of employee turnover,
   absenteeism, insurance premiums, damaged or stolen property and workplace
   accidents. Further, the results show that productivity increased as we expected.


      1 While       not required, ONDCP recommends agencies develop a graph to accompany information contained in the table.
(c) The Agency determines the goals based on the number of grantees and whether
    previous goals were reached.

(d) The Agency depends on the honesty and integrity ofthe DFWP grantees to ensure
    performance data for this measure are accurate, complete, and unbiased in
    presentation and substance.

   MEASURE 2: Number ofDFWPs Implemented

   Table 22
      FY 2007 Actual            FY 2008 Actual         FY 2009 Actual           FY 2010 Goal         FY 2010 Actual


               453                    363                     375                     170                   465


(a) Describe the measure. This measure reflects the number of small businesses that
    implemented a whole or partial DFWP. A purpose of the program is to encourage as
    many small businesses as possible to implement a DFWP for their business. If a
    business implements a DFWP, it is believed that there will be a decrease in
    absenteeism, workplace accidents, tardiness, damaged or stolen property and
    insurance premiums. It is also believed that productivity and moral will increase.
    The information is collected directly from the grantees. The grantees input their data
    into a database created just for this program.

(b) The actual goal of FY 2010 was underestimated because the number of small
    businesses implementing a DFWP varies widely from year to year due to the
    fact that the grantees cannot force a small business to implement such a
    program. The grantee can only encourage the small business by showing the
    benefits of the implementation.

(c) The Agency determines the goals based on the number of grantees and whether
    previous goals were reached.

(d) The Agency depends on the honesty and integrity of the DFWP grantees to ensure
    performance data for this measure are accurate, complete, and unbiased in
    presentation and substance.




      2   While not required, ONDCP recommends agencies develop a graph to accompany infonnation contained in the table.
II.      RESOURCES~ARY


         FY 2010 Drug Methodology 	                     FY2010 

                                                        Final BA 


         Prevention and Education 

         DFWPGrants                                     $lM 


          Drug Resources Personnel 

          Total FTEs (direct only)                      0


          Information
          Total Agency Budget*                          $729.4M
          Drug Percentage                               0.001371%

          *Does not include Office ofDisaster Assistance Program or the Office of
          the Inspector General.

      GRANTEE NAlvrE                          DATE        PO AMOUNT
      Houston Council on Alcohol and Drug     9/16/10        $250,000.00
      figment Group, Inc.                     9121110        $163,006.00
      iAdvanced Behavioral Health, Inc.       9123/10        $176,511.00
      Arkansas Occupational Health Clinic     9116/10        $160,000.00
      Drug Free America Foundation            9/20/10        $250,000.00
                                      Total                  $999,517.00

III. MANAGEMENT'SASSERTIONS

(1) Performance reporting system is appropriate and applied - The Agency
    has a system to capture performance information accurately and that system
    was properly applied to generate the performance data.

(2) Explanations for not meeting performance targets are reasonable The
    goal for the number of Small Businesses Educated was not reached in FY
    2010. It is difficult to predict the number. of small businesses that will want
    education on a DFWP since there is no legally binding rule requiring them to
    do so.

(3) Methodology to establish performance targets is reasonable and applied
    The methodology described above to establish performance targets for the
    current year is reasonable given past performance and available resources.

(4) Adequate performance measures exist for all significant drug control
    activities - The Agency has established at least one acceptable performance
measure for each Drug Control Budget Decision Unit identified in reports
required by Section 6a(1 )(A) for which a significant amount of obligations
($1,000,000 or 50 percent ofthe agency drug budget, whichever is less) were
incurred in the previous fiscal year. Each performance measure considers the
intended purpose ofthe National Drug Control Program actIvity.
